<html>
<title> - DYSFUNCTION IN MANAGEMENT OF WEATHER AND CLIMATE SATELLITES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





                  DYSFUNCTION IN MANAGEMENT OF WEATHER
                         AND CLIMATE SATELLITES

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON OVERSIGHT &
                      SUBCOMMITTEE ON ENVIRONMENT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 19, 2013

                               __________

                           Serial No. 113-49

                               __________

 Printed for the use of the Committee on Science, Space, and Technology




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



       Available via the World Wide Web: http://science.house.gov



                                  _______

                   U.S. GOVERNMENT PRINTING OFFICE

85-275 PDF                WASHINGTON : 2013
______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001














              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              MARK TAKANO, California
KEVIN CRAMER, North Dakota           ROBIN KELLY, Illinois
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS STEWART, Utah
VACANCY
                                 ------                                

                       Subcommittee on Oversight

                   HON. PAUL C. BROUN, Georgia, Chair
F. JAMES SENSENBRENNER, JR.,         DAN MAFFEI, New York
    Wisconsin                        ERIC SWALWELL, California
BILL POSEY, Florida                  SCOTT PETERS, California
DAVID SCHWEIKERT, Arizona            EDDIE BERNICE JOHNSON, Texas
KEVIN CRAMER, North Dakota
LAMAR S. SMITH, Texas
                                 ------                                

                      Subcommittee on Environment

                    HON. CHRIS STEWART, Utah, Chair
JIM BRIDENSTINE, Oklahoma            SUZANNE BONAMICI, Oregon
F. JAMES SENSENBRENNER, JR.,         JULIA BROWNLEY, California
    Wisconsin                        DONNA F. EDWARDS, Maryland
DANA ROHRABACHER, California         MARK TAKANO, California
RANDY NEUGEBAUER, Texas              ALAN GRAYSON, Florida
PAUL C. BROUN, Georgia               EDDIE BERNICE JOHNSON, Texas
RANDY WEBER, Texas
LAMAR S. SMITH, Texas























                            C O N T E N T S

                           September 19, 2013

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Paul C. Broun, Chairman, Subcommittee 
  on Oversight, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    14
    Written Statement............................................    15

Statement by Representative Dan Maffei, Ranking Minority Member, 
  Subcommittee on Oversight, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    16
    Written Statement............................................    17

Statement by Representative Chris Stewart, Chairman, Subcommittee 
  on Environment, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    18
    Written Statement............................................    19

Statement by Representative Suzanne Bonamici, Ranking Minority 
  Member, Subcommittee on Environment, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    20
    Written Statement............................................    21

                               Witnesses:

Mr. David Powner, Director, Information Technology Management 
  Issues, U.S. Government Accountability Office
    Oral Statement...............................................    23
    Written Statement............................................    26

Ms. Mary Kicza, Assistant Administrator, Satellite and 
  Information Services, National Oceanic and Atmospheric 
  Administration
    Oral Statement...............................................    48
    Written Statement............................................    50

Mr. Marcus Watkins, Director, Joint Agency Satellite Division, 
  National Aeronautics and Space Administration
    Oral Statement...............................................    61
    Written Statement............................................    63

Discussion.......................................................    67

             Appendix I: Answers to Post-Hearing Questions

Mr. David Powner, Director, Information Technology Management 
  Issues, U.S. Government Accountability Office..................    86

Ms. Mary Kicza, Assistant Administrator, Satellite and 
  Information Services, National Oceanic and Atmospheric 
  Administration.................................................    90

Mr. Marcus Watkins, Director, Joint Agency Satellite Division, 
  National Aeronautics and Space Administration..................   102

            Appendix II: Additional Material for the Record

GAO report to the Committee on Science, Space, and Technology, 
  House of Representatives, ``Geostationary Weather Satellites: 
  Progress Made, but Weakness in Scheduling, Contingency 
  Planning, and Communicating with Users Need to Be Addressed''..   110

GAO report to the Committee on Science, Space, and Technology, 
  House of Representatives, ``Polar Weather Satellites: NOAA 
  Identified Ways to Mitigate Data Gaps, but Contingency Plans 
  and Schedules Require Further Attention........................   172

 
      DYSFUNCTION IN MANAGEMENT OF WEATHER AND CLIMATE SATELLITES

                              ----------                              


                      TUESDAY, SEPTEMBER 19, 2013

                  House of Representatives,
             Joint Hearing with the Subcommittee on
                                  Oversight and Environment
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittees met, pursuant to call, at 10:03 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Paul Broun 
[Chairman of the Subcommittee on Oversight] presiding.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Broun. This joint hearing of the Subcommittee on 
Oversight and the Subcommittee on Environment will come to 
order.
    Good morning and welcome to today's joint hearing. In front 
of you are packets containing the written testimony, 
biographies, and truth-in-testimony disclosures for today's 
witnesses. Before we get started, since this is a joint hearing 
involving two Subcommittees, I want to explain how we will 
operate procedurally so all Members understand how the 
question-and-answer period will be handled. We will recognize 
those Members present at the gavel in order of seniority on the 
full Committee and those coming in after the gavel will be 
recognized in their order of arrival.
    I now recognize myself for five minutes for an opening 
statement.
    Today's hearing is titled ``Dysfunction in Management of 
Weather and Climate Satellites. Let me begin by extending a 
warm welcome to our witnesses and thank you all for appearing 
here today.''
    The Committee on Science, Space, and Technology has held 
about a dozen hearings on weather satellites, under both 
Republican as well as Democratic leadership, all since 2003. 
Continued oversight is important because these programs are 
important. Data from these satellites not only help one decide 
whether or not to leave the house with an umbrella, they allow 
meteorologists to more accurately predict extreme weather, 
military planners to more intelligently deploy troops around 
the world, and emergency managers to better respond to 
wildfires and other natural disasters.
    Unfortunately, the programs have been plagued with 
problems. The Department of Commerce Office of Inspector 
General, the U.S. Government Accountability Office, and other 
independent reviewers have repeatedly assessed that the 
programs are at risk of exceeding cost and missing deadlines 
due to a myriad of issues. Citing ongoing concerns about 
potential data gaps for NOAA's polar-orbiting and geostationary 
satellite programs, including a potential polar-orbiting gap of 
17 to 53 months, GAO added NOAA's satellite programs to its 
High Risk List in a report issued earlier this year.
    On that note, I want to take a moment to thank the GAO 
staff for their diligent work on this issue over the years. You 
have been a valuable resource to this Committee's oversight 
efforts, and I want our witness Mr. Powner to know that I 
personally, and we as a Committee, appreciate your work and 
your presence here today. Thank you, sir.
    As I have said before, it is frustrating to watch these 
important programs struggle. But it is even more frustrating to 
be told by NOAA and NASA that ``all is well'' when we all know 
that that is not the case. An IG report, GAO reports, and a 
2012 independent report sponsored by NOAA all say otherwise, 
with the independent report going so far as to use the word 
``dysfunctional'' in its analysis of the weather satellite 
programs. Another independent NOAA-commissioned report released 
this year described the possibility of the United States' 
reliance on China for satellite data as a ``silver bullet.'' I 
have grave concerns about incorporating data into U.S. systems 
from a country well known for its persistent and malicious 
cyber attacks against our Nation.
    The latest lifecycle cost estimate for JPSS is $11.3 
billion, but it took some crafty accounting to arrive at that 
number. Along the way, the program went from six satellites 
operating in three separate orbits and carrying 11 unique 
sensors under NPOESS, the precursor to JPSS, to now two 
satellites, operating in one orbit, carrying only five sensors. 
Even with those downgrades, the first JPSS satellite isn't 
scheduled to launch until March 2017.
    The GOES-R program is further along than JPSS, but it, too, 
is facing a potential data coverage gap. It is my understanding 
that NOAA expects to retire one of its operational satellites, 
GOES-13, and move the backup, GOES-14, into operation in April 
2015. That means for at least six months, there will be no 
backup satellite, assuming GOES-R is launched in October of 
2015. Recently, however, program officials acknowledged that 
the launch date will likely slip by one quarter, which could 
result in a delay of as much as six months. And the cause for 
the delay? A $54 million sequester cut, according to NOAA 
staff.
    If money is so tight and our weather satellite programs are 
so vulnerable, then perhaps the Administration needs to 
evaluate its priorities and determine which is more important: 
near-term weather monitoring, which can save lives and property 
today, or beefing up NOAA's climate portfolio in an effort to 
guess what the weather might be decades from now.
    I look forward to hearing our witnesses' testimonies and 
receiving some candid answers to our questions. Let me also 
make this general observation to you all: it is a lot easier 
for Congress to work collaboratively with the Administration on 
solving our satellite problems if there is transparency about 
potential concerns. As such, I will ask you to please answer 
our questions later in a concise, straightforward, expeditious, 
and accurate manner. It will defeat the purpose of this hearing 
if our questions are sidestepped through the use of 
bureaucratic doublespeak, as that will only try our patience 
and will waste our limited and valuable time.
    [The prepared statement of Mr. Broun follows:]

     Prepared Statement of Representative Paul C. Broun, Chairman, 
                       Subcommittee on Oversight

    I want to extend a warm welcome to our witnesses and thank them for 
appearing today.
    The Committee on Science, Space, and Technology has held about a 
dozen hearings on weather satellites, under both Republican and 
Democratic leadership, since 2003. Continued oversight is important 
because these programs are important. Data from these satellites not 
only help one decide whether or not to leave the house with an 
umbrella, they allow meteorologists to more accurately predict extreme 
weather, military planners to more intelligently deploy troops around 
the world, and emergency managers to better respond to wildfires and 
other natural disasters.
    Unfortunately, the programs have been plagued with problems. The 
Department of Commerce Office of Inspector General, the U.S. Government 
Accountability Office and other independent reviewers have repeatedly 
assessed that the programs are at risk of exceeding cost and missing 
deadlines due to a myriad of issues. Citing ongoing concerns about 
potential data gaps for NOAA's polar-orbiting and geostationary 
satellite programs, including a potential polar-orbiting gap of 17 to 
53 months, GAO added NOAA's satellite programs to its High Risk List in 
a report issued earlier this year.
    On that note, I want to take a moment to thank the GAO staff for 
their diligent work on this issue over the years. You have been a 
valuable resource to this Committee's oversight efforts, and I want our 
witness Mr. Powner to know that we appreciate your work and your 
presence here today.
    As I have said before, it is frustrating to watch these important 
programs struggle. But it is even more frustrating to be told by NOAA 
and NASA that ``all is well'' when we all know that is not the case. An 
IG report, GAO reports, and a 2012 independent report sponsored by NOAA 
all say otherwise, with the independent report going so far as to use 
the word ``dysfunctional'' in its analysis of the weather satellite 
programs. Another independent NOAA-commissioned report released this 
year described the possibility of the United States' reliance on China 
for satellite data as a ``silver bullet.'' I have grave concerns about 
incorporating data into U.S. systems from a country well-known for its 
persistent and malicious cyber attacks against our nation.
    The latest lifecycle cost estimate for JPSS is $11.3 billion, but 
it took some crafty accounting to arrive at that number. Along the way, 
the program went from six satellites, operating in three separate 
orbits and carrying 11 unique sensors under NPOESS, the precursor to 
JPSS, to now two satellites, operating in one orbit, carrying only five 
sensors. Even with those downgrades, the first JPSS satellite isn't 
scheduled to launch until March 2017.
    The GOES-R program is further along than JPSS, but it too is facing 
a potential data coverage gap. It is my understanding that NOAA expects 
to retire one of its operational satellites, GOES-13, and move the 
back-up, GOES-14, into operation in April 2015. That means for at least 
six months, there will be no backup satellite, assuming GOES-R is 
launched in October 2015. Recently, however, program officials 
acknowledged that the launch date will likely slip by one quarter, 
which could result in a delay of as much as six months. And the cause 
for the delay? A $54 million sequester cut, according to NOAA staff.
    If money is so tight and our weather satellite programs so 
vulnerable, then perhaps the Administration needs to evaluate its 
priorities and determine which is more important--near-term weather 
monitoring, which can save lives and property today, or beefing up 
NASA's climate portfolio in an effort to guess what the weather might 
be decades from now.
    I look forward to hearing our witnesses' testimonies and receiving 
some candid answers to our questions. Let me also make this general 
observation to you all: it is a lot easier for Congress to work 
collaboratively with the Administration on solving our satellite 
problems if there is transparency about potential concerns. As such, I 
will ask you to please answer our questions later in a concise, 
straightforward, and accurate manner. It will defeat the purpose of 
this hearing if our questions are sidestepped through the use of 
bureaucratic doublespeak, as that will only try our patience and waste 
our limited time.

    Chairman Broun. I now recognize the Ranking Member, the 
gentleman from New York, my friend Mr. Maffei, for an opening 
statement.
    Mr. Maffei. I want to thank my friend, the Chairman, and I 
want to apologize for being just a couple minutes late today. 
We are going to be talking about how it is difficult to protect 
the weather. Apparently, it is difficult to predict the traffic 
in Washington as well.
    But, Mr. Chairman, the weather satellites we have flying 
over the poles and in geostationary orbits over the East and 
West Coast provide essential data for weather forecasting. And 
both the Joint Polar Satellite System and the Geostationary 
Operational Environmental Satellite are essential acquisition 
programs intended to put replacements on orbit for the current 
generation of operating satellites. Unfortunately, both of 
these acquisitions have been troubled, and that is why I am 
grateful to you for holding this hearing today, as well as 
Chairman Stewart.
    Of the two, JPSS is far and away in the most trouble. It 
will produce a definite gap in coverage due to the technical 
and cost challenges which have plagued the program. The 
Geostationary program is also worrisome with an ongoing 
possibility of a data gap emerging due to schedule slips. 
Obviously, none of us are happy about this. However, it has 
been suggested in some locations that this might be something 
tied to the cost of doing climate science, and I don't believe 
this is the case.
    When the Obama Administration took office, they inherited a 
crippled program already. It lacked planning and management 
guidance to move forward. It had experienced cost growth from 
6.5 billion to at least 12.5 billion. For almost 100 percent of 
the growth, we were getting two satellites instead of six, and 
we had jettisoned many sensors. This is what the Administration 
inherited and they had to make hard decisions about how to move 
the program forward, and that took almost two years to get the 
Defense Department out of the program and NOAA and NASA on a 
fresh path.
    Any observer, I think, would have to conclude that the 
restructured JPSS program is better managed and better 
structured now than it was in 2008, and that we should be proud 
of, but there are still gaps in the management tools needed in 
JPSS. Again, compared to where we were between 2005 and 2008, 
the bleeding has stopped and the slips seem relatively small. 
With that said, we are still facing an inevitable gap in 
coverage and what to do about that gap is going to be and 
should be explored today.
    The Geostationary Satellite program has always been a 
little healthier than JPSS. It has suffered from more technical 
issues and less relative cost growth and enjoyed more stable 
management than the polar program. That said, there is still a 
chance of a gap in coverage that would be tragic. NOAA has to 
keep the track--keep on track to get our satellites in orbit 
and working before the current geostationary satellites go 
dark. We need satellites ready for launch to avoid limit or gap 
in coverage. We need clear plans for alternative sources of 
data to protect accurate forecasting. And we need to make sure 
that we are not forced to depend on other countries such as the 
People's Republic of China that the Chairman rightfully pointed 
out would have unacceptable downsides to that kind of 
relationship. We need to be confident that both of these 
programs are going to succeed even by the diminished 
expectations we now hold for them.
    And with that, I yield back to you, Mr. Chairman, and I 
thank you again for holding the hearing.
    [The prepared statement of Mr. Maffei follows:]

   Prepared Statement of Representative Dan Maffei, Ranking Minority 
                   Member, Subcommittee on Oversight

    Mr. Chairman, the weather satellites we fly over the poles and in 
geostationary orbits over the East and West coasts provide essential 
data for weather forecasting.
    Both the Joint Polar Satellite System (JPSS) and the Geostationary 
Operational Environmental Satellite (GOES-R) are essential acquisition 
programs intended to put replacements on-orbit for the current 
generation of operating satellites. Unfortunately, both these 
acquisitions have been troubled.
    Of the two, JPSS is far and away in the most trouble, and will 
produce a definite gap in coverage due to the technical and cost 
challenges which have plagued the program. GOES-R is also worrisome, 
with an ongoing possibility of a data gap emerging due to schedule 
slips.
    None of us are happy about this. However, it has been suggested 
that somehow the problems in these programs are tied to the costs of 
climate science. This is just not the case.
    When the Obama Administration took office, they inherited a 
crippled program that lacked all the planning and management guidance 
necessary to move forward. It had experienced cost growth from $6.5 
billion to at least $12.5 billion. For almost 100 percent cost growth 
we were getting two satellites instead of six and we had jettisoned 
many sensors. The Administration inherited hard decisions about how to 
move the program forward and it took almost two years to get DOD out of 
the program and NOAA and NASA on a fresh path.
    Any objective observer would have to conclude that the restructured 
JPSS program is better managed and better structured now than it was in 
2008. There are still gaps in the management tools need in JPSS, but 
compared to where we were in 2005 through 2008, the bleeding has 
stopped and the slips seem relatively small.
    That said, we are facing an inevitable gap in coverage. While that 
cannot be laid at the feet of this Administration, we can ask of the 
Administration whether they have put necessary resources into settling 
on a valid gap-filler strategy. Have they identified other sources of 
data? Do they have all agreements in place to insure they have unbroken 
access to that data? What steps have been taken to validate the effects 
of that data on our modeling to insure that we minimize impacts on 
forecast accuracy? These are crucial questions that I would like to see 
answered today.
    As to GOES-R, that program has always been a little healthier than 
JPSS. It has suffered from fewer technical issues and less relative 
cost growth, and enjoyed more stable management than the polar program. 
That said, there is still a chance that a gap in coverage could emerge 
and that would be tragic. NOAA has to keep on track to get us 
satellites on orbit and working before the current GOES satellites go 
dark. The recent slip narrows the margin for error and is a cause for 
concern among all of us.
    We need satellites ready for launch to avoid or limit coverage 
gaps. We need clear plans for alternative sources of data to protect 
forecasting accuracy. We need confidence that both these programs are 
going to succeed, even by the diminished expectations we now hold for 
them.

    Chairman Broun. Thank you, Mr. Maffei.
    I now recognize the Chairman of the Subcommittee on 
Environment, the gentleman from Utah, Mr. Stewart, for his 
opening statement.
    Mr. Stewart. Thank you, Dr. Broun, for holding this 
important hearing. I would like to thank the witnesses for 
being with us today. We look forward to hearing from you and 
for your expertise and for your service to our country.
    I think all of us agree this is an important issue. I think 
we all sense the clock is ticking and there is a sense of 
urgency of trying to move forward in a way that is, I think, 
beneficial.
    The Science Committee has a long history of overseeing the 
management of NOAA and NASA weather and climate satellite 
systems. Unfortunately, these programs have been rife with 
delays and other issues for more than a decade now, as has 
already been expressed by the two previous opening statements. 
Topics at issue today are also very timely in that they relate 
to legislation being considered by this Committee, the Weather 
Forecasting Improvement Act of 2013, which attempts to focus 
critical resources on developing a top-notch weather 
forecasting system based on streamlined research-to-operations 
and a more reasonable balance of resources toward weather 
research.
    All of our witnesses acknowledge the strong possibility of 
a data gap for one or both of our major weather satellite 
systems in a few short years. These satellites provide the 
majority of data for numerical weather predictions in this 
country, and a gap could be catastrophic for forecasting by the 
National Weather Service and our innovative weather enterprise. 
A potential gap in the polar-orbiting or geostationary 
satellite data, combined with continuing issues with how NOAA 
develops, analyzes, procures and integrates other satellite 
information, risks the permanent loss of U.S. leadership in 
weather forecasting. I believe the writing is on the wall, and 
our current trajectory is simply unacceptable.
    As the Government Accountability Office will testify, our 
geostationary and polar-orbiting programs, known as GOES and 
JPSS, have been--again, indicated in previous testimony or 
opening statements, they have been plagued with cost overruns, 
with technical issues, and other delays. And we need to 
consider the right mix of satellite technology to make timely, 
accurate, and effective forecasts to protect American lives and 
property.
    For our polar-orbiting satellites, not only is there a 
potential gap in the 2016 to 2018 time frame, but there may 
also be issues between the first and second JPSS satellites in 
the early 2020s.
    While the GOES-R program has made progress in completing 
testing for several components, the program has still missed 
several key milestones for both flight and ground segments. 
This has caused the launch date for the GOES-R to slip from 
October 2015 to perhaps March of 2016. There are also other 
technical problems on the horizon, including the Geostationary 
Lightning Mapper, an instrument that appears to duplicate some 
already-existing commercial capabilities.
    Robust contingency planning and implementation of these 
plans, as suggested by GAO, is essential. We have seen that it 
has taken several years for NOAA to validate key products on 
the SUOMI-NPP satellite. Just after the Oklahoma tornadoes this 
year, a micrometeoroid appears to have hit an existing GOES 
satellite, turning off all of its instruments. Murphy's Law 
seems to be on full display when it comes to our weather 
satellites, and continued blue sky evaluations by NOAA could 
prevent us from dealing with these problems before they arise.
    It has taken the Administration several years and the 
prodding of this Committee as well as GAO to fully acknowledge 
the very real risk of a data gap, and we need to look at all 
options to mitigate potential breakdowns in our forecasting 
ability. While NOAA has paid for reports to examine gap 
mitigation options, I have fear that not enough has been done 
to pursue implementation of these backup plans.
    We need to look at American, as well as potentially 
commercial, sources for these critical data. It should be 
alarming that we may be in a position to have to rely on 
international partners for weather data and to protect lives 
and property, an outcome that could raise much greater quality 
and access concerns than some of our other potential commercial 
partners that have so far been rebuffed by NOAA.
    And with that, Mr. Chairman, I now yield back.
    [The prepared statement of Mr. Stewart follows:]

   Prepared Statement of Subcommittee on Environment Chairman Chris 
                                Stewart

    Thank you, Dr. Broun, for holding this important hearing. The 
Science Committee has a long history overseeing the management of NOAA 
and NASA weather and climate satellite systems. Unfortunately, these 
programs have been rife with issues for more than a decade. Topics at 
issue today are also very timely as they relate to legislation being 
considered by this Committee, ``The Weather Forecasting Improvement Act 
of 2013,'' which attempts to focus critical resources on developing a 
top notch weather forecasting system based on streamlined research-to-
operations and a more reasonable balance of resources toward weather 
research.
    All of our witnesses acknowledge the strong possibility of a data 
gap for one or both of our major weather satellite systems in a few 
short years. These satellites provide the majority of data for 
numerical weather prediction in this country, and a gap could be 
catastrophic for forecasting by the National Weather Service and our 
innovative weather enterprise. A potential gap in polar-orbiting or 
geostationary satellite data, combined with continuing issues with how 
NOAA develops, analyzes, procures and integrates other satellite and 
observational information, risks the permanent loss of U.S. leadership 
in weather forecasting. The writing is on the wall, and our current 
trajectory is unacceptable.
    As the Government Accountability Office will testify, our 
geostationary and polar-orbiting programs, known as GOES and JPSS, have 
been plagued with cost overruns, technical issues, and delays. We need 
to consider the right mix of satellite technology to make timely, 
accurate, and effective forecasts to protect American lives and 
property.
    For our polar orbiting satellites, not only is there a potential 
gap in the 2016 to 2018 timeframe, but there may also be issues between 
the first and second JPSS satellites in the early 2020s.
    While the GOES-R program has made progress in completing testing 
for several components, the program has still missed several key 
milestones for both flight and ground segments. This has caused the 
launch date for GOES-R to slip from October 2015 to March 2016. There 
are also other technical problems on the horizon, including with the 
Geostationary Lightning Mapper, an instrument that also appears to 
duplicate some already-existing commercial capabilities.
    Robust contingency planning and implementation of those plans as 
suggested by GAO is essential. We have seen that it has taken several 
years for NOAA to validate key products on the SUOMI-NPP satellite. 
Just after the Oklahoma tornadoes this year, a micrometeoroid appears 
to have hit an existing GOES satellite, turning all of its instruments 
off. Murphy's Law seems to be on full display when it comes to our 
weather satellites, and continued blue sky self-evaluations by NOAA 
could prevent us from dealing with these problems before they arise.
    It has taken the Administration several years and the prodding of 
this Committee and GAO to fully acknowledge the very real risk of a 
data gap, and we need to look at all options to mitigate potential 
breakdowns in our forecasting ability. While NOAA has paid for reports 
to examine gap mitigation options I have fear that not enough has been 
done to pursue implementation of these backup plans. We need to look at 
American, and potentially commercial, sources for these critical data. 
It should be alarming that we may be in a position of having to rely on 
international partners for weather data to protect lives and property, 
an outcome that could raise much greater quality and access concerns 
than some of the potential commercial partners that have so far been 
rebuffed by NOAA.

    Chairman Broun. Thank you, Mr. Stewart.
    The Chairman now recognizes Ms. Bonamici, the Ranking 
Member of the Environment Subcommittee, for her statement.
    Ms. Bonamici. Thank you very much, Chairman Broun and 
Chairman Stewart, for holding this hearing today and thank you 
to all of our witnesses who are here today. We look forward to 
your testimony and answers.
    Our constituents may spend little time thinking about 
weather satellites managed by NOAA, but we have all at some 
point been transfixed by the images of hurricanes captured by 
NOAA's Geostationary Operational Environmental Satellites, and 
we all benefit from the forecasts, especially of severe storms 
that result from data collected in polar and geostationary 
satellite systems.
    As Mr. Stewart mentioned on the Environment Subcommittee, 
we have been working on how to improve weather forecasting and 
protect the American public and economy from severe weather. 
Losing coverage from either of the polar satellite or the 
geostationary satellites would seriously affect accurate 
weather forecasting. Because of a litany of troubles in the 
polar program, it now appears virtually certain that we will 
have a gap in satellite coverage perhaps for as long as three 
years, and there remains a chance, not a probability but a 
possibility, that we may face a gap in the geostationary 
satellites as well. There was a time when we would all say that 
a gap in coverage is unacceptable, and now what would be 
unacceptable would be not having a viable plan to address such 
a gap.
    And with that in mind, the questions for our witnesses 
today have to be how do we minimize the scope and length of the 
expected gap in the polar program? How can we avoid a gap in 
the geostationary program? And are the plans to fill the gaps 
in coverage appropriately developed?
    On the Joint Polar Satellite System program, we have had 
eight years to determine how to handle a gap, and as early as 
2005, we were getting warnings of slips in schedule and 
instrument issues and cost growth. Today, I am interested in 
hearing about NOAA's definitive plan for how to deal with the 
gap they know they will face for polar satellite data.
    And on the GOES satellites, a potential for a gap has been 
slower in developing and still appears to be avoidable. 
However, even here I would expect and hope that NOAA has 
started to think about a contingency plan should the satellites 
suffer early failure and the replacement satellite suffer 
further delay. Of course we all hope everything performs 
optimally, but I would also hope that prudent managers would 
develop a plan for failure.
    I want to join Mr. Maffei in expressing my regret and 
frankly surprised that the majority charter for the hearing 
suggests that the problems in NOAA's satellite program are 
somehow tied to climate science research. That simply is not 
accurate, and anyone who spends time looking at the history of 
these programs would be hard-pressed to identify climate 
research as even a factor in the technical problems, the 
schedule slips, or cost growth in the last eight years. 
Further, the majority charter seems to perpetuate what has 
become a common misconception in this Committee, that climate 
research is the same thing as climate change research.
    Colleagues, the issue before us today has been ongoing for 
years. My hope is that we can set aside partisanship and find 
solutions to what really is a slow-moving national tragedy. We 
should emerge from this hearing with a bipartisan commitment to 
work together and to help ensure that NOAA is doing all it can 
and should to manage these programs and plan for and cover any 
gaps. I also hope we can work together to support NOAA in 
getting any resources it needs to continue to protect the 
American public. I look forward to hearing from the witnesses 
from GAO, NOAA, and NASA, and to discuss the relevant agencies' 
plan of action to address the looming satellite coverage gaps 
and to keep these programs on track.
    Thank you very much, Mr. Chairman, and with that, I yield 
back.
    [The prepared statement of Ms. Bonamici follows:]

   Prepared Statement of Subcommittee on Environment Ranking Member 
                            Suzanne Bonamici

    Thank you, Chairman Stewart and Chairman Broun, for holding the 
hearing today. Our constituents may spend little time thinking about 
weather satellites managed by the National Oceanic and Atmospheric 
Administration, but we have all at some point been transfixed by the 
images of hurricanes captured by NOAA's Geostationary Operational 
Environmental Satellites. And we all benefit from the forecasts-
especially of severe storms--that result from data collected in the 
polar and geostationary satellite systems.
    On this Committee, we have been working on how to improve 
forecasting and protect the American public and economy from severe 
weather. Losing coverage from either the polar satellites or the 
geostationary satellites would seriously affect accurate weather 
forecasting.
    Because of trouble and mismanagement in the polar program, it now 
appears virtually certain that we will have a gap in satellite 
coverage, perhaps for as long as three years. And there remains a 
chance, not a probability but a possibility, that we may face a gap in 
the geostationary satellites as well.
    There was a time when we would all say that a gap in coverage was 
unacceptable. Now what is unacceptable is not having a viable plan to 
address such a gap.
    With that in mind, the questions for our witnesses have to be:

    <bullet>  How can we minimize the scope and length of the expected 
gap in the polar program,
    <bullet>  How can we avoid a gap in the geostationary program, and
    <bullet>  Are plans to fill gaps in coverage appropriately mature?

    On the Joint Polar Satellite System program we have had eight years 
to determine how to handle a gap. As early as 2005, we were getting 
warnings of slips in schedule and instrument issues and cost growth.
    Today I am interested in hearing about NOAA's definitive plan for 
how to deal with a gap they know they will face for polar satellite 
data. On the GOES satellites, the potential for a gap has been slower 
in developing and still appears to be avoidable. However, even here, I 
would expect that NOAA has started to think about a contingency plan 
should the current satellites suffer early failure and the replacement 
satellite suffer further delay. Of course we all hope everything 
performs optimally, but also I would hope that prudent managers will 
develop a plan for failure.
    I want to join Mr. Maffei in expressing my regret, and frankly 
surprise, that the Majority charter for this hearing suggests the 
problems in NOAA's satellite program are somehow tied to climate 
science. That simply is not true and anyone who wants to spend some 
time looking at the history of these programs would be hard pressed to 
identify climate as even a factor in the technical problems, schedule 
slips, or cost growth of the last eight years. Further, the majority 
charter seems to perpetuate what has become a common misconception on 
this committee: that climate research is the same thing as climate 
change research.
    Colleagues, this is an issue that has been ongoing for years. My 
hope today is that we can set aside partisanship and find solutions to 
what really is a slow-moving, national tragedy. We should emerge from 
this hearing with a bipartisan commitment to work together and help 
ensure that NOAA is doing all that it can and should to manage these 
programs and plan for gaps. I also hope we can work together to support 
NOAA in getting the resources they need to continue to protect the 
American public I look forward to hearing the witnesses from GAO, NOAA, 
and NASA discuss how the relevant agencies plan of action to address 
the looming satellite coverage gap and to keep these programs on track.

    Chairman Broun. Thank you, Ms. Bonamici.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    At this time, I would like to introduce our panel of 
witnesses. Our first witness is Mr. David Powner, Director of 
Information Technology Management Issues at the U.S. Government 
Accountability Office. Mr. Powner, welcome.
    Our second witness is Ms. Mary Kicza, Assistant 
Administrator for Satellite and Information Services at the 
National Oceanic and Atmospheric Administration. Welcome.
    And our third witness is Mr. Marcus Watkins, Director of 
the Joint Agency Satellite Division at the National Aeronautics 
and Space Administration. Welcome, sir.
    As our witnesses should know, spoken testimony is limited 
to five minutes each, after which the Members of the Committee 
will have five minutes each to ask you all questions.
    It is the practice of this Subcommittee to receive 
testimony under oath. Now, if you would please stand and raise 
your right hand.
    Do you solemnly swear or affirm to tell the whole truth and 
nothing but the truth, so help you God?
    Thank you. You may be seated.
    Let the record reflect that all the witnesses participating 
have taken the oath.
    Now, before I recognize the first witness, let me just make 
a couple of points. I am very eager to hear your testimonies, 
but I would have appreciated the opportunity to read the NOAA 
and NASA testimonies 48 hours ago when they were due. I 
understand and I hope neither of you are directly responsible 
for the tardiness of submitting your testimony to this 
Committee, but I would like for you to pass the message along 
to the appropriate person or individuals that it is 
inconsiderate to provide testimony less than 48 hours before a 
hearing less than 24 hours before a hearing when the deadline 
is 48 hours. You were both given ample notice about this 
hearing, in fact, on August 14th, which was over a month ago, 
and yet you were unable to provide the testimonies as 
requested.
    I am further frustrated by NASA when I consider that the 
agency declined to send another witness requested by the 
Committee and it still submitted testimony late.
    When testimony is delivered this late, it does not provide 
Members of the Committee sufficient time to review and prepare 
to engage in an informative discussion with you about these 
programs. Your tardiness is intolerable and it reflects poorly 
on your respective agencies and the Administration by default 
as well.
    Further, will you please confirm that you will personally 
ensure that the Committee receives responses to our questions 
for the record following the hearing in a timely manner that is 
closer to two weeks than two months?
    Ms. Kicza nodded her head and you assure us that, Mr. 
Watkins?
    He nodded his head yes, too, so I am counting that as a 
commitment on both of your part.
    And I am looking specifically at you, Ms. Kicza, because as 
you well know, NOAA has yet to reply to questions from the 
Committee relative to a hearing on the National Weather Service 
held over a year ago. You are aware. That hearing in which your 
colleague, Dr. Sullivan, testified before us here, do you have 
an update on the status of those responses? Could you please 
give us an update from the agency as soon as possible? We are 
eagerly awaiting those responses and I think it is 
inappropriate and inconsiderate. Thank you.
    I thank you and I appreciate everyone's indulgence.
    Now, I recognize Mr. Powner for five minutes.

            TESTIMONY OF MR. DAVID POWNER, DIRECTOR,

           INFORMATION TECHNOLOGY MANAGEMENT ISSUES,

             U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Powner. Mr. Chairman, Ranking Members, and Members of 
the Subcommittee, earlier this year GAO added the potential 
gaps in weather satellite coverage in consultation with this 
Committee as a high-risk area demanding immediate attention 
from NOAA management. Gaps in weather satellite coverage are 
likely and could have severe effects on lives and our economy. 
Therefore, our country needs the very best backup plans that 
budgets can afford.
    This morning, we are releasing two reports completed at 
your request, one on the GOES-R acquisition and the other on 
JPSS, which address the gap situation and contingency efforts. 
I would like to highlight our recommendations and findings on 
each, starting with GOES.
    There has been significant progress on the flight and 
ground components. The flight components are at various stages 
leading up to key systems integration and the spacecraft 
construction started earlier this year. Integration of ground 
components is slated to occur in early 2014, and the program is 
currently operating within its $10.5 billion lifecycle cost 
estimate.
    Turning to the launch date of October 2015, last year, we 
reported to this Committee that there was a 40 percent chance 
the GOES-R would meet its October launch date, and our report 
today highlights technical issues, delayed interim milestones, 
and scheduling weaknesses that call into question that launch 
date.
    Right after we received NOAA's comments on our report, they 
did in fact slip the launch date to early 2016. Although this 
slip might not appear significant, it is since it extends the 
period of time where there will be no operational backup 
satellite for about a year-and-a-half from April 2015 until 
GOES-R launches and completes the 6-month check-out. Having 
this backup satellite in orbit at all times is an essential 
NOAA policy, as it has proved useful on multiple occasions over 
the past several years when one of the two operational GOES 
satellites has experienced issues and the backup had to be 
moved into position to provide weather observations.
    NOAA has fairly solid contingency plans to address the 
scenario, many consistent with best practices, but our report 
points out some areas where improvements are needed, primarily 
in areas focusing on preventing launch delays. We are also 
making recommendations on improving the spacecraft and ground 
schedules so that additional delays do not occur.
    Moving to JPSS, again, there is very solid progress to 
report. NPP transitioned from interim to routine operations in 
February of this year and key upgrades to the ground system 
have been made.
    Regarding JPSS-1, flight project is on track and 
instruments are between and 80 and 100 percent complete and the 
critical design review has been completed on the spacecraft. 
However, although the JPSS ground project has made progress, a 
major software release has been delayed.
    Also, major revisions to the programs scope are occurring 
to keep it within the $11.3 billion lifecycle cost estimate. 
Last year, when we testified, the program was going from $14.6 
billion to $12.9 billion; now, it is at $11.3 billion. That is 
a $3.3 billion reduction in not a very long time. NOAA is 
reporting the bulk of the savings as coming from moving certain 
climate sensors outside of the JPSS program and also moving 
other sensors to NASA. There are many uncertainties associated 
with these moves, namely, what satellites these sensors will 
fly on and whether these savings will truly allow the program 
to operate within the $11.3 billion cost estimate.
    We looked in depth at the schedules of VIIRS, the ground 
component in the spacecraft. We found issues with certain 
components' schedules and the program overall did not have an 
integrated master schedule. All this is necessary to stay on 
track for the March 2017 launch date.
    In addition, NOAA and NASA are reporting they have a 70 
percent confidence in the JPSS-1 March 2017 launch date. Our 
confidence is much lower because the 70 percent assessment did 
not factor in the scheduling weaknesses we raised in our 
report. Hitting this March 2017 launch date is extremely 
important because any delays will extend the likely 17-month 
gap in the afternoon orbit. The gap will likely occur from late 
2016 to early 2018.
    NOAA had an initial contingency plan to address the gap and 
recently contracted for technical assessment that identified 
additional alternatives. Options included using other 
government foreign and commercial satellite, using non-
satellite sources such as aircraft observations and improving 
weather models. This list is quite extensive, but let's be 
clear. None of the options can replace JPSS polar satellite 
observations. These options can minimize the gaps but do not 
eliminate the damage to forecasts from the gap. Because of 
this, the very best contingency options need to be selected.
    Therefore, we recommended that decisions need to be made on 
exactly what strategies to be pursued and the procedures need 
to be established to implement and adequately test them. We are 
also making recommendations on improving the spacecraft and 
ground schedules so that the March 2017 launch date does not 
slip.
    Mr. Chairman, this concludes my statement. Thank you for 
your leadership and oversight of these critical acquisitions.
    [The prepared statement of Mr. Powner follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Broun. Thank you, Mr. Powner.
    Now, Ms. Kicza, you are recognized for five minutes.

                  TESTIMONY OF MS. MARY KICZA,

                    ASSISTANT ADMINISTRATOR,

              SATELLITE AND INFORMATION SERVICES,

        NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

    Ms. Kicza. Good morning, Chairman Stewart and Broun, 
Ranking Members Bonamici and Maffei, and Members of the 
Subcommittees. I am pleased to join Mr. Watkins and Mr. Powner 
to provide an update on the JPSS and GOES-R series programs.
    I am proud to report that JPSS and GOES-R series continue 
to meet their key milestones. For the SUOMI-NPP mission, NOAA 
assumed operational control of the satellite in February 2013. 
Suomi has achieved over 99 percent data availability and its 
high resolution sounder data has been incorporated into weather 
service operational models. JPSS-1 remains on track for launch 
in second quarter Fiscal Year 2017. The instruments are built 
and now undergoing testing. The spacecraft is being built. Data 
products are being calibrated and validated and the ground 
systems are being upgraded. With a decision to focus JPSS on 
NOAA's critical weather mission, we have reduced the JPSS 
lifecycle cost to $11.3 billion and accelerated the JPSS-2 to 
launch the first quarter of Fiscal Year 2022. JPSS-2 
instruments and spacecraft acquisitions are now underway.
    For GOES-R, four of six instruments have completed 
environmental testing and the spacecraft bus has completed its 
critical design review. Significant progress has been made on 
the ground system with installation now complete for four of 
six antennas at Wallops Island, VA and West Virginia. GOES-R is 
on track for its second quarter Fiscal Year 2016 launch.
    While the title of this hearing would lead one to believe 
otherwise, management and oversight of these critical programs 
is functional. In response to recent review recommendations, 
the Department of Commerce, NOAA, and NASA have streamlined 
oversight and management decision-making processes, documented 
roles and responsibilities, and instituted a reporting process 
which has been well received.
    Within JPSS, the NOAA and NASA systems engineering 
personnel have been integrated into a single team, which is 
recognized as a cohesive high-performing unit. Within NOAA/
NESDIS, we have added an enterprise-level systems engineering 
function and begun implementation of common ground services. 
Both efforts are already producing results which serve to 
reduce future costs.
    The NOAA/NASA partnership remains robust. The significant 
progress on JPSS and GOES-R reinforces the 2010 Administration 
decision to return to the partnership that has built and 
operated our Nation's operational weather satellites for more 
than 40 years. This partnership capitalizes on the strengths of 
both organizations to develop and operate our weather 
satellites enabling delivery of products and services critical 
to our weather forecasts.
    Our NOAA/NASA team relies heavily on our industry partners. 
Contractors at locations across the Nation are working to bring 
JPSS and GOES-R to fruition. I congratulate them for their 
successes to date, particularly with SUOMI-NPP and thank them 
for their dedication to building next-generation systems on 
time and within budget.
    We remain closely connected to our user community and 
appreciate the GAO's recommendation to strengthen these 
connections. Concerns about a possible observational gap has 
been a common theme among our users. I assure you, maintaining 
observational continuity remains our singular focus, and to 
that end, we remain intent on keeping our on-orbit assets 
operating safely, delivering next-generation capabilities on or 
ahead of schedule, and implementing approaches to mitigate the 
impact of the gap should one occur.
    Louie Uccellini, my counterpart at the National Weather 
Service, understands the importance of satellite data for the 
national weather forecasting enterprise. We both recognize, 
however, this enterprise includes contributions from academia, 
where much of the research and development occurs; the private 
weather forecasting sector, which provides avenues for 
dissemination of weather products; and federal, state, and 
local emergency managers who serve as first responders when 
severe weather strikes.
    NOAA also relies on our relationships with our 
international partners to meet our requirements. In this 
regard, we recently signed a long-term agreement with EUMETSAT, 
our European counterpart, to ensure continuity of our 
partnership to share space-based observational data.
    Finally, I turn my attention to Congress. The ability of 
our teams to achieve sustained observations is only possible 
with your continued support. In addition to providing 
oversight, we depend on you to provide the budgets required to 
implement next-generation systems and to do so in a manner in 
which we can plan effectively. We are grateful for your 
support.
    We understand the difficult fiscal challenges our Nation 
faces and we have worked hard to minimize the impacts to our 
launch schedules in light of sequester reductions. We 
appreciate the recommendations offered by the GAO and by other 
external review bodies and we will respond to them. We 
recognize that collectively we all share the same objective, 
and that is mission success.
    Thank you and I am happy to answer your questions.
    [The prepared statement of Ms. Kicza follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Broun. Thank you, Ms. Kicza.
    Now, Mr. Watkins, you are recognized for five minutes.

                TESTIMONY OF MR. MARCUS WATKINS,

           DIRECTOR, JOINT AGENCY SATELLITE DIVISION,

         NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    Mr. Watkins. Mr. Chairman and Members of the Subcommittee, 
thank you for the opportunity to appear today to provide you 
information regarding the NASA role in, and commitment to, 
NOAA's Joint Polar Satellite System, also referred to as JPSS, 
and the Geostationary Operational Environmental Satellite-R 
Series, or GOES-R, programs. The JPSS and GOES-R programs are 
critical to the Nation's weather forecasting system, 
environmental monitoring, and research activities.
    NASA and NOAA have been partners for more than 40 years in 
developing the Nation's polar and geosynchronous weather 
satellites. With the President's direction in 2010, NASA and 
NOAA returned to this successful partnership for JPSS. The NASA 
program office for JPSS has been established and is fully 
staffed. NOAA and NASA have established joint agency-level 
program management councils to oversee JPSS, and have 
integrated their decision-making processes to efficiently and 
effectively manage this cooperative activity. The NASA and NOAA 
teams have strengthened their working relationship over the 
last three years. One example of the JPSS organization success 
is the upcoming launch of the Total Solar Irradiance 
Calibration Transfer Experiment, TCTE, later this year on a 
United States Air Force mission to be launched November 4.
    The Suomi National Polar-orbiting Partnership, or SUOMI-
NPP, was successfully launched almost two years ago and NOAA 
has operational control of this satellite. Meteorologists 
continue to use data products from instruments from SUOMI-NPP 
in their weather forecasts, and all of the data products have 
been publicly released.
    In addition to this success of SUOMI-NPP, the transition 
from the NPOESS program to the new JPSS program is now 
finished. The JPSS program successfully completed two critical 
milestones in 2013, keeping the program on schedule and within 
budget. Now, both the JPSS-1 satellite mission and overall 
program have moved from the planning and formulation phase to 
implementation and execution.
    NASA, as NOAA's acquisition agent, manages all of the JPSS 
instrument, spacecraft, and the majority of the ground system 
contracts. The first JPSS satellite, JPSS-1, will be a near 
clone of SUOMI-NPP with upgrades to meet the JPSS-1 level 
requirements. The instrument vendors continue to make progress 
in the manufacture of the flight units for the JPSS-1 and the 
spacecraft is currently being fabricated. Additionally, the 
Delta II rocket has been selected as the launch vehicle for the 
JPSS-1 mission.
    The GOES-R Series program of four geosynchronous satellites 
continues to make progress toward launching GOES-R, the first 
satellite of the series, in the second quarter of Fiscal Year 
2016. Last fall, the GOES-R Series program successfully 
completed a Mission Critical Design Review. Since then, the 
GOES-R and GOES-S spacecraft have made good progress in 
component manufacturing, and GOES-R is proceeding with 
spacecraft integration. Four of the six GOES-R instruments have 
completed environmental testing.
    The next major milestone for the GOES-R Series program is 
the Systems Integration Review, which is currently planned for 
the spring of 2014. Those performing the System Integration 
Review will evaluate the readiness of the program to start 
assembly, test, and launch operations.
    NASA and NOAA are committed to the JPSS and GOES-R program, 
and ensuring the success of these programs is essential to both 
the agencies and the Nation. The NASA and NOAA teams have 
established strong working relationships and are striving to 
ensure the weather and environmental requirements are met on 
the most efficient and predictable schedule without reducing 
system capabilities or further increasing risk.
    Once again, thank you for the opportunity to testify today. 
I appreciate the support of this Committee and the Congress for 
these critical programs and would be pleased to answer any 
questions that you may have.
    [The prepared statement of Mr. Watkins follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Broun. Thank you, Mr. Watkins.
    I want to thank all of you for your testimony.
    Now, reminding Members that Committee rules limit 
questioning to five minutes, the Chair at this time will open 
the first round of questions by recognizing myself for five 
minutes.
    Ms. Kicza, there seems to be a big disconnect between what 
you say and your testimony and what we hear from other folks, 
and hopefully, we can sort all that out. One thing we have just 
heard from you is that lifecycle cost of JPSS is now at $11.3 
billion, but the responsibility for three climate sensors were 
transferred to NASA. NOAA has entered a new budget line item 
for a polar-free flyer program that had previously been 
included in the JPSS program an estimate. Please explain how 
these actions are not just budgeting tricks to make it appear 
that costs have gone down, when in reality they have been 
transferred to somewhere else and taxpayers are still on the 
hook for them.
    Ms. Kicza. Yes, sir. In response to both Congressional 
feedback and the President's Fiscal Year 2013 budget, as well 
as an independent review, NOAA in concert with the 
Administration took the actions to focus the JPSS program on 
the critical weather mission. In doing so, there were several 
activities that took place. One was transferring capabilities 
outside of the scope of the JPSS program. While the JPSS 
program was reduced, those costs still remain should be 
Administration and the Congress choose to continue to fund 
those.
    Chairman Broun. Well they are still there. Those costs are 
still there.
    Ms. Kicza. Yes. That is correct.
    Chairman Broun. You can transfer the cost so it is not 
actually a reduction in the cost to the program, is that 
correct?
    Ms. Kicza. It is a reduction in the cost of the JPSS 
program, not a reduction of the total cost of the program. In 
addition to that, as part of the JPSS activities, we also 
reduced costs there as well. And if you would like a question 
for the record, we can enumerate those particular costs. Some 
of them were due to reducing reserves given the positive 
progress that the program has made, as well as the positive 
results of the SUOMI-NPP mission. Other areas include reducing 
areas of overlap between the NOAA and NASA activities 
particularly associated with the science.
    Chairman Broun. Well, let me ask you this, Ms. Kicza. GAO 
reports that identify the lifecycle costs, that is the sum of 
all recurring and one-time costs from cradle to grave of the 
program at $11.34 billion JPSS and $10.9 billion for GOES-R. 
Can you break those numbers down for us further?
    Ms. Kicza. Yes, sir.
    Chairman Broun. Let me ask, for example, how much is being 
spent on research and development for the ground components? 
How much is being spent on flight systems and sensors? How much 
will it cost to launch these satellites into orbit, and what 
are the estimated annual operating and maintenance costs? Can 
you give us those figures?
    Ms. Kicza. Sir, I would be happy to take a question for the 
record that enumerates all of those figures from both of those 
satellite systems.
    Chairman Broun. Okay. Well, I would appreciate it. We are 
going to give you some questions----
    Ms. Kicza. Absolutely.
    Chairman Broun. to answer for the record, and if you would, 
please breakdown the cost associated with each program in 
response to the Committee's questions for the record.
    Ms. Kicza. Yes, sir. Those are available.
    Chairman Broun. Okay. Mr. Powner, JPSS is reporting a 70 
percent confidence in its planned launch date for JPSS-1. What 
concerns do you have that the JPSS-1 schedule will stay on 
track and what percentage would you give the program of meeting 
its March '17 launch date?
    Mr. Powner. So, Mr. Chairman, what we did is we looked in 
detail at various schedules with JPSS program. One of the key 
sensors, VIIRS spacecraft in the ground system, because those 
scheduling practices give you confidence that ultimately you 
can hit a launch date. What we found were weaknesses in some of 
that scheduling. We actually found VIIRS to be stronger than 
the spacecraft in the ground component, which was encouraging. 
When you look at the 70 percent confidence analysis that was 
done, it did not factor in all the components of the program, 
so our confidence would be less than 70 percent.
    Chairman Broun. Can you give us a number?
    Mr. Powner. I don't have an exact number. It is definitely 
less than 70 percent.
    Chairman Broun. Is it less than 50?
    Mr. Powner. That would be difficult to say. You know, we 
would have to look at those numbers with the models that they 
ran with that assessment, and that was our one recommendation 
is to rerun that with a more realistic confidence level 
factoring in all of these issues, ground and all the things we 
found with the flight segment also.
    The key, Mr. Chairman, is this: I think these scheduling 
practices, we are really focused on doing everything we can to 
tighten up those scheduling practices so that launch dates 
don't slip anymore. We can't have launch date slips because any 
further launch date slips like what happened on GOES, it 
appears insignificant, it is actually significant because it 
affects the backup situation.
    Chairman Broun. Right.
    Mr. Powner. That is really the focus that needs to occur.
    Chairman Broun. Absolutely. And particularly when you get 
into a backup situation, you are talking about 17-month gap in 
there and this is intolerable just for good weather 
forecasting.
    My time is expired. Now, I recognize Mr. Maffei for five 
minutes.
    Mr. Maffei. I thank the Chairman.
    Mr. Powner, just following on that, were you surprised by 
the delay in the launch in the first GOES satellite? And what 
issues are in play that may lead to further delays with GOES?
    Mr. Powner. The delay in the launch did not surprise us 
because last year we testified in front of this Committee that 
there was a 48 percent confidence in the October 2015 launch 
date and we highlighted some scheduling weaknesses. In our 
report this year, we talk about some interim milestones that 
were missed, some technical issues, the Geostationary Lightning 
Mapper is one good example, and then also further scheduling 
issues. So the delay did not surprise us.
    Mr. Maffei. It is difficult to overestimate the importance 
of weather prediction in my central New York State district. We 
get very bad weather, as people know. They are quite manageable 
because we can predict the weather, we can get our plows on the 
roads, et cetera. It doesn't slow us down in contrast to this 
city which can't seem to handle--the thought of a flake of 
snow, everybody closes.
    Chairman Broun. One snowflake will close Atlanta.
    Mr. Maffei. Yeah--well, yeah.
    Chairman Broun. Almost.
    Mr. Maffei. Yeah, exactly. Yes. But we will get that--we 
will enter that into the record.
    But in any event, it is extremely important, and it is 
obviously extremely important to the Nation's economy. And as 
we do see more and more storms and things like that--Hurricane 
Sandy was devastating and it was just the latest one--it is 
just absolutely vital that we get this going.
    So pardon me for leaving the technical stuff behind but, 
you know, John F. Kennedy announced we were going to the moon 
in 1962 and seven years later we were there. We have got 3-1/2 
years to wait just for the JPSS to launch, and that might slip. 
GOES has already slipped. I mean I--and so I go to--I talk to 
the staff and I say, well, it must be money, right? There is 
not enough money here? But my understanding is money is really 
not the issue. If it is, you can correct me, but--so I will 
start with Mr. Powner, can you educate me? What--why does it 
take so darn long to put these things up when we are 2013? We 
have been doing these satellites--are we making the perfect the 
enemy of the good? Is that the problem? We want to have 
absolutely the latest technology on everything and so we, you 
know--I yield.
    Mr. Powner. Well, I think we did. I mean these things were 
much more complex in the past and they are being whittled down 
to becoming simpler and simpler with less sensors, and that is 
probably a good thing.
    But the reality is there were a lot of problems over the 
years, probably more significant than what we currently have. I 
mean I used to testify in front of this Committee where we 
would talk about one and two year slips and billion-dollar 
overruns like clockwork. It was like clockwork year-to-year. 
And that put us in the situation we are in.
    So I know the GOES. It slipped one quarter. Historically, 
if you look at that, that looks actually pretty good but it is 
not. It is not because it is significant. But the problem is is 
we have built up to this point in time where all these sins of 
the past with NPOESS and the whole bit, it is catching up to 
everyone and that is why we have a gap. That is why we added it 
to our high-risk list so it gets the right attention with the 
appropriate contingency plans.
    Mr. Maffei. Ms. Kicza and then Mr. Watkins, is there 
anything you can enlighten me with? Why does it take so long to 
get a weather satellite up in the greatest country in history 
in 2013?
    Ms. Kicza. I would offer that it is a combination of issues 
that cause it to be difficult to build these more rapidly than 
we currently are. First of all, these are complex systems for 
both GOES-R and for the JPSS system. With SUOMI-NPP, there were 
new instruments, which oftentimes is more difficult when we 
start.
    However, I could contend that given the partnership that we 
have with NASA, our track record particularly on GOES-R has 
been very good. This is the first slip other than a protest we 
had with a contract early on that we have announced since 2007. 
And in fact the team itself continues to work to the earlier 
date.
    What we suggested is, given our reserve posture, we are 
committing to a date that is in the second quarter of Fiscal 
Year 2016. The team itself continues to work to the earlier 
date. We have had several reviews of the schedule of 
confidence, including the one that Mr. Powner refers to. In 
going through the analysis of the GOES-R system, we all agree 
that the best thing to do is to continue to work to the 
earliest date possible, which is what this team is doing.
    Mr. Maffei. Thank you, Ms. Kicza. I want--it has improved 
that I do want to give Mr. Watkins a chance to explain. And are 
we making the perfect the enemy of the good?
    Mr. Watkins. I don't believe that we are making perfect the 
enemy of the good. Again, when you are looking at these weather 
satellites and the instrumentation that we are carrying, the 
instruments are advanced. With respect to the JPSS, again, 
initially SUOMI-NPP was to be a research and development 
satellite, a satellite that we would learn about the 
instruments. We now find ourselves in a position of utilizing 
that satellite operationally. Now, it is performing extremely 
well and the data products are already making their way into 
weather forecasting.
    The biggest challenge that we see is one of stability. What 
the programs, GOES as well as JPSS, need are stable funding so 
that we can plan accordingly, implement the programs. If you 
look at the track record associated with JPSS since the demise 
of NPOESS, we have been on schedule even with the challenges 
associated with in some cases delayed funding, in some cases--
well, even with those challenges, we have been able to maintain 
the JPSS-1 launch date.
    Mr. Maffei. Mr. Watkins, thank you very much. Your point is 
good. I am already a minute over but I am sure we will continue 
to explore it.
    Mr. Watkins. Okay. Thank you.
    Chairman Broun. Thank you, Mr. Maffei. By the way, for the 
record, I was being very facetious. Atlanta does a great job of 
taking care of snow when we get it down there. We don't get as 
much as you all do in upstate New York, but I applaud what the 
Atlanta public works folks do in taking care of the snow. And--
--
    Mr. Maffei. I am sure Representative Lewis will appreciate 
the correction. I will let him know.
    Chairman Broun. It just reflects, though, how important it 
is for not only upstate New York but for Atlanta and for 
California and for the whole country for us to get these 
satellites flying and get them on board. So thank you, sir.
    Now, Mr. Stewart, you are recognized for five minutes.
    Mr. Stewart. Well, thank you, Mr. Chairman. And I have a 
facetious comment about Atlanta as well that I will forbear in 
order to be gracious.
    I appreciate the testimony from the witnesses. I appreciate 
some of the questioning that has taken place. And it is 
interesting to me and honestly a little bit troubling to me 
some of the differences in opinions or perceptions based on 
some of the testimony and some of the answers to the questions.
    You don't know so let me share with you. I was an Air Force 
pilot for 14 years. I flew one of the most sophisticated 
weapons systems ever built. And I honestly--maybe because of 
that culture, I can't imagine going into a mission without a 
backup. It just didn't happen. And it would have been 
completely unacceptable if we presented a proposal or a 
campaign where we didn't have multiple backups. And yet that is 
exactly the situation we find ourselves in now. And I think we 
all agree that it is a mess.
    And now, I am convinced that this is a result of 
sequestration. Very clearly this goes back previous to the last 
year when sequestration actually was implemented. But I don't 
think it is entirely the fault of this Administration. I think 
this has been perhaps in the making for a little bit longer 
than that.
    But rather than look back, I would like to look forward to 
concentrate on what we can do to mitigate some of these 
concerns that we have. And some of the options that we have 
that will maybe relieve some of the pressure, as I understand 
it, we are basically looking at generally two options. One of 
them is to rely on foreign sources of data, foreign government, 
particularly the Chinese, which is, I think, troubling for all 
of us. The second would be tapping into available commercial 
sources of some satellite or data capability. I would 
appreciate any of you have input to that, would commercial data 
purchases help NOAA avoid having to rely on foreign governments 
for much of this very critical data? Ms. Kicza, would you mind 
addressing that?
    Ms. Kicza. Yes, that is part of the contributions that we 
would take advantage of. In fact, if we are in a situation 
where we do have a gap, and I will say that our gap situation 
has improved since we last were before this Committee given the 
positive progress on SUOMI-NPP and the fact that we have 
remained on schedule for JPSS-1 and have accelerated JPSS-2. 
But in the event we do have a gap, NASA and NOAA are looking at 
several options and we are thankful for the funding in the 
Sandy Supplemental that is allowing us to move forward on that.
    That includes making better use of existing data, including 
microwave sensor data from the Defense Meteorological Satellite 
Program. Using our Cloud Impact Radiance data and using that 
more fully than we have been able to use it in the past, 
extending our current operational systems further into the 
future--NPOESS and the MetOp series--and making sure that we 
are sustaining that for as long as we are able to, and taking 
advantage of the new data sources that are planned for the 
future, including the potential of commercial data sources. 
Radio occultation in particular is one of interest.
    Mr. Stewart. Okay. Let me pursue this a little bit if I 
could. I think most of us would be much more comfortable 
relying on U.S. sources, commercial sources than relying on 
foreign governments. Tell me the steps you are taking to 
prepare for that eventuality. Is the Administration moving 
forward to say, okay, when we reach that point because many of 
us suspect that we will, this is what we are doing to prepare, 
and for example, are you working with any of these commercial 
providers right now to prepare so that we can move forward very 
quickly should we need to?
    Ms. Kicza. In response to the Sandy Supplemental funding 
that was provided in Fiscal Year 2013, NOAA is moving out on 
several fronts simultaneously to do the items that I just 
referred to. In addition to that, we are improving our 
computational capability and doing operational simulations that 
will allow us to determine which is the best source of data to 
procure, whether that be through commercial or through 
international partnerships.
    Mr. Stewart. So, as I understand it right now, you are 
still just evaluating?
    Ms. Kicza. No, we are in fact moving out on those 
activities. Those are underway.
    Mr. Stewart. Okay. And a contracting process, is that 
underway?
    Ms. Kicza. That is beginning in some of the activities.
    Mr. Stewart. Okay.
    Ms. Kicza. Yes, and if you would like a question for the 
record, I could--
    Mr. Stewart. Okay.
    Ms. Kicza. --enumerate that more for you.
    Mr. Stewart. Would either of the other witnesses have any 
perspective you could add to that?
    Mr. Powner. I have a comment on the gap situation 
improving. I am not aware of the gap situation improving. NPP, 
if it lasts five years and maybe we are expecting it to last 
longer than five years, and hopefully it will so there is less 
of a gap, but that puts us in late 2016. We launch in March 
2017. We have a year check-out. That gives us the 17-month gap 
we talk about. So our concern is we take the gap very serious 
so that we have the right plans in place and not downplay the 
likelihood of a gap. I think that is very important going 
forward so that we have the most robust plan in place.
    Mr. Stewart. Well, I appreciate that, Mr. Powner, I do, and 
I share exactly your sentiment. And I don't think it is helpful 
for us to, you know, as I said in my opening statement, blue 
sky the scenarios here.
    And, Ms. Kicza, I appreciate and I would encourage you and 
the Administration to continue to lean forward to looking at 
other options, particularly the commercial options. That may be 
something that could be very beneficial to us and we are far 
better to be doing it now that we are to be doing in 2016.
    And with that, Mr. Chairman, I apologize for taking a 
little extra time and I yield back.
    Chairman Broun. Well, thank you, Mr. Stewart, and I think 
we all agree with that statement. We all on both sides are very 
eager to get these things flying and operational. It is 
absolutely critical for weather warnings for all of us, even 
upstate New York.
    Now, Ms. Bonamici, you are recognized for five minutes.
    Ms. Bonamici. Thank you very much, Mr. Chairman. I 
appreciate the discussion and want to follow up a bit and 
really get more focus on the expected gap. And I understand, 
Ms. Kicza, that the current gap--and now we are talking about a 
range here--could be as low as we just heard, 17 months. I have 
heard it could be up to three years. So could you talk about 
what NOAA is--what steps NOAA is taking to make sure that the 
gap stays at the short end of that range?
    Ms. Kicza. First of all, refocusing the JPSS to a weather-
focused mission improves our confidence in meeting both the 
JPSS-1 and JPSS-2 launch dates. As I said, JPSS-1 is on track; 
JPSS-2 has been accelerated. Close management of the Suomi 
operations will allow us to preserve that mission for as long 
as possible. And as I have mentioned, we now have two years of 
successful operations of Suomi on orbit. The issues that we 
would have expected to see that are referred to as ``infant 
mortality issues,'' early issues that will manifest themselves 
and present themselves as problems have not been seen on SUOMI-
NPP.
    Both of these areas increase development schedule content--
confidence. Keeping JPSS-1 on track and Suomi on orbit 
operation success gives us confidence that if SUOMI-NPP 
continues to perform as expected, that we can significantly 
reduce our projected risk of a gap in orbit.
    Lastly, I will note that the projections that we had had in 
the past also assumed the time associated with calibrating and 
validating the instruments on JPSS-1, our experience in SUOMI-
NPP is also indicating that we may be able to reduce the time 
associated with the on-orbit check-out and calibration 
measurements on the JPSS-1. All of these contribute to reduced 
risk.
    Ms. Bonamici. Thank you. And I want to follow up on the 
SUOMI-NPP. Mr. Powner, in your testimony you say that the 
program estimates that there will be a gap of about a year-and-
a-half from the time when the current SUOMI-NPP satellite 
reaches the end of its expected lifespan and when the JPSS-1 
launch satellite will be in orbit and operational. So how do 
you calculate the expected lifespan, and obviously, it is an 
expected lifespan so it will be shorter or longer, and what are 
you doing to plan for the entire span?
    Mr. Powner. So on NPP that was a demonstration satellite 
that was not built with the rigor that we will have on JPSS-1.
    Ms. Bonamici. Right.
    Mr. Powner. So the expected lifespan was three to five 
years. So the five-year mark, we use that as a--okay, that is--
hopefully we get the full five years out of it and it could go 
longer, okay. We acknowledge that. But I think it is good to 
plan for five years. Five years puts you in late 2016. If you 
launch March 2017 and have a one-year check-out, which is 
typically how it goes--now, Mary, I am glad to hear that 
hopefully you can reduce that 12-month check-out. Those are the 
things that we want to see, but that is how we calculate the 
17-month likely gap, and that is on the--that is best case 
scenario on our point because what happens is if NPP doesn't 
last the full five years, it is longer. If JPSS-1 slips, it is 
longer. So all of those, that is how we get this range of 
likelihood of the gap. We think planning at least for a 17-gap 
is prudent.
    Ms. Bonamici. Thank you. And, Mr. Powner, I want to ask you 
another question, too. In your current report or past report--I 
know you have been working on this quite a long time--did you 
ever identify the NASA Earth sciences budget allocation as a 
cause for delay in satellite procurement at NASA?
    Mr. Powner. We have not.
    Ms. Bonamici. And has trouble with climate sensors or a 
focus on the technology led to a delay in the satellite program 
or contributed at all to the data gaps?
    Mr. Powner. Trouble with the climate sensors? Not 
particularly. The major issue was with the VIIRS. The major 
issue was with VIIRS if you go back historically and----
    Ms. Bonamici. Thank you. And did--have you identified steps 
that might be taken to prevent a data gap from developing in 
the GOES program? I know in your testimony you do note that you 
made multiple recommendations to NOAA and NOAA has taken steps 
to address the recommendations. Have you identified steps or 
made recommendations to prevent the data gap--a data gap from 
developing in the GOES program?
    Mr. Powner. So on the GOES situation, it is a little 
different. It is a gap--it is not having an operational backup 
capability. That is very important because prior to Super Storm 
Sandy, we have repositioned the backup into operations. We did 
it again this year and 2012. So it is very important to have 
this operational backup.
    The issue there is with--when the current GOES launches, 
there is likely going to be about a year where we don't have 
the operational backup, so this little slip of a quarter, which 
could be as long as six months, pushes that to about a year-
and-a-half. So there are fairly good contingency plans 
associated with the GOES program because they actually use them 
when they actually move satellites into operations. Really what 
you need to do is minimize any further slips in the launch of 
GOES so that we don't have a further issue with the backup.
    Ms. Bonamici. Thank you very much. I see my time is 
expired.
    Thank you very much, Mr. Chairman.
    Chairman Broun. Thank you, Ms. Bonamici.
    Now, the Chairman recognizes Mr. Rohrabacher for five 
minutes.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. I 
appreciate the opportunity to get to know more about this 
program and appreciate that some people who are out there 
putting an awful lot of work into making sure that the American 
people have the information they need and a weather satellite 
system that will serve its very needs and protect us against 
the maladies of weather that have plagued humankind. A reading 
of history is a reading of people whose lives were destroyed by 
maladies in the weather.
    And today, we have come a long way in that. And I would 
like to ask Ms. Kicza how many total satellites do you have in 
orbit that you are looking after or looking after us?
    Ms. Kicza. In the polar orbit right now we have NOAA-15 and 
NOAA-16 are older satellites that are secondary. We had NOAA-18 
as a secondary.
    Mr. Rohrabacher. Excuse me. So you have 15 satellites and 
then another 16?
    Ms. Kicza. No, I am sorry. In the polar orbit----
    Mr. Rohrabacher. Yes.
    Ms. Kicza. --we have our primary operational satellite, 
which is NOAA-19. We have older satellites that remain in their 
orbits that are still producing data although at degraded 
levels. So we have NOAA 15, NOAA-16, NOAA-18, NOAA-19, and 
SUOMI-NPP. In the geostationary orbit we have GOES 13, GOES 14, 
and GOES 15. So we have got one, two, three, four, five, six, 
seven, eight satellites that we are operating right now that 
are NOAA's satellites. In addition to that, we also support the 
Defense Meteorological Satellite Program and their series of 
satellites.
    Mr. Rohrabacher. So you have eight satellites and right 
now, we are in discussion about replacing how many of them?
    Ms. Kicza. The JPSS will replace the SUOMI-NPP. SUOMI-NPP 
is currently operating, as is NOAA-19. JPSS-1will replace 
SUOMI-NPP in 2017. GOES-R will replace the on-orbit spare that 
by that time we likely will have positioned into a primary 
position. So it would replace GOES-14.
    Let me take this opportunity to let the Committee know that 
all of our older satellites we continue to operate for as long 
as possible. The geostationary satellites, for example, GOES 
13, 14, 15, they are designed for ten-year lives. We typically 
operate them until we have no fuel left. So the depletion of 
fuel for GOES-13, for example, is in the 2021 time frame. For 
GOES-14 and GOES-15, it is in the 2024 time frame.
    Mr. Rohrabacher. So we are here to discuss replacing two 
today?
    Ms. Kicza. We are replacing--the plans are to replace the 
primary spacecraft----
    Mr. Rohrabacher. Right.
    Ms. Kicza. --when their primary missions are complete----
    Mr. Rohrabacher. There are two?
    Ms. Kicza. --and most likely when they are degraded.
    Mr. Rohrabacher. Two satellites?
    Ms. Kicza. Yes.
    Mr. Rohrabacher. And you were just telling us now that 
there may be a need quickly when this fuel runs out to either 
replace or refuel these.
    Ms. Kicza. No, what I am suggesting is that we use our 
older satellites for as long as we can.
    Mr. Rohrabacher. Right.
    Ms. Kicza. They are not our primary satellites. They become 
secondary. And that our current constellation that is in orbit, 
we will continue to fly those as long as we have fuel and the 
instruments are operating.
    Mr. Rohrabacher. Right. But you expect that fuel to run out 
within a number of five, six years?
    Ms. Kicza. For the geostationary satellites, if the 
instruments to perform and the satellite continues to perform--
--
    Mr. Rohrabacher. Okay.
    Ms. Kicza. --the fuel will last long past when GOES-R would 
be launched.
    Mr. Rohrabacher. Okay. I have got to, I guess, get moving. 
Thank you for----
    Ms. Kicza. Sure.
    Mr. Rohrabacher. --clarifying this for me. This is a very 
expensive program but a program that provides a very important 
and valuable service.
    I would think that there have been other valuable services 
that government has provided in the past that has evolved into 
private sector services. And we want to especially, of course, 
encourage that at a time when the government has such a huge 
deficit that would help having the private sector put 
investment in where government was the sole provider before. We 
had a nice discussion in my office the other day, and it just 
seems to me in listening today and reading about this, that 
there is a hesitancy about purchasing commercial data and thus 
evolving into a situation where the commercial companies could 
actually play a much greater role.
    At the same time, it is important to note that a 
commissioned study by NOAA suggested that maybe this gap, for 
example, could be handled--you call it the ``silver bullet'' 
solution--is to rely on data from Chinese government 
satellites. It seems to me that it is a pretty misplaced set of 
values here when we are more interested in Chinese satellite 
data and we are hesitant to use commercial data from our own 
American companies.
    And thank you very much, Mr. Chairman.
    Chairman Broun. Thank you, Mr. Rohrabacher.
    Now, Mr. Posey, your recognized for five minutes.
    Mr. Posey. Thank you, Mr. Chairman.
    Ms. Kicza, I understand that the GOES-R ground system 
continues to make some very good progress toward the ground 
ratings, and I wondered if you could give me some examples of 
the progress, you know, how the installation of antennas in 
Wallops and Fairmont going?
    Ms. Kicza. Yes, sir. I am happy to do that. The GOES-R 
ground system has made excellent progress. The release of the 
mission management core ground element has been delivered to 
the NOAA Satellite Operations Facility in Suitland, Maryland. 
Four of the six new antenna structures have been completed. 
These are at the Wallops Flight Facility in Wallops Island, 
Virginia, and at our remote backup site and Fairmont, West 
Virginia. And the GOES-R ground system did complete its 
critical design review last July.
    Mr. Posey. Thank you. Also, what about the initial mission 
management software? Has that been installed at NOAA Satellite 
Operations Facility and has it passed acceptance test yet?
    Ms. Kicza. Yes, sir, it has been installed at the NOAA 
Satellite Operations Facility and it is undergoing tests now.
    Mr. Posey. Okay. Mr. Watkins, I read recently that we 
missed on our orbit by two weeks gamma, ray bursts from the sun 
that would have knocked out quite a few of our satellites and 
perhaps taken down our grid. I am just wondering what your 
assessment of that is. If we had been on a two-week-later path, 
what damage do you think we would have sustained?
    Mr. Watkins. Sir, I am going to have to take that question 
for the record. I really don't have the expertise in that area 
to speak on that.
    Mr. Posey. Do you realize there was any danger? I mean have 
you been advised? I mean you are the Joint Agency Satellite 
Division National Aeronautics Director.
    Mr. Watkins. That is correct, and my primary role is 
implementation of NOAA's portfolio of weather satellites. I am 
an engineer by training. I work to get them built. To talk 
about the science associated with a gamma ray burst, clearly 
they offer risk to our planet and there are steps that we take 
and monitor these. But I am--in no way would I care to really 
speak in depth on the impact of a gamma ray burst.
    Mr. Posey. Would you be kind enough to provide my office 
with that information?
    Mr. Watkins. Absolutely, sir.
    Mr. Posey. Okay. Thank you.
    Back to Ms. Kicza, given that the GOES-R will provide about 
40 times more data to the weather expert community, it is 
important that the users are going to be ready to actually 
utilize the information, hopefully. And I assume that stations 
are going to need to be upgraded. I am just curious about what 
you are doing to prepare the weather prediction community for 
this extraordinary increase in information that they are going 
to have available.
    Ms. Kicza. Yes, sir. In fact, the GOES-R program has for 
some time now implemented what we call GOES-R proving grounds. 
And in doing so, we work hand-in-hand with our operational 
weather forecasters to prepare them for what they are likely to 
see in the GOES-R era so that they know what to expect and how 
to utilize it.
    Similarly, to be ready to accommodate this data on the 
ground is an effort in and of itself. I mentioned the progress 
on the GOES-R ground system. We have about 150 racks of 
equipment coming in to the NOAA Satellite Operations Facility 
and the backup facility in Fairmont, West Virginia, in just a 
few months. So there is a tremendous amount of work going on. 
And being ready to receive that equipment requires facility 
upgrades that are underway and on track. It requires that we 
have our ability to distribute that data in place. That, too, 
is on track. And in the long-term that we have the ability to 
archive that data, and we are working through our CLASS archive 
capability to prepare for that as well.
    Mr. Posey. Thank you. And I guess I have about a half-a-
minute left. I just wondered if you could briefly comment on 
the instruments in GOES-R that I understand are weather-focused 
instruments that can observe weather not just here on Earth but 
we can also get a better view of the space weather.
    Ms. Kicza. That is correct. There are six instruments on 
the GOES-R series system. The Advanced Baseline Imager is the 
primary weather imager, a critical instrument that has 
significant capability over our current GOES assets in orbit. 
There is the Geostationary Lightning Mapper, which is a new 
capability that will allow us to see much more closely the 
cloud-to-cloud lightning, which is a major indicator of pre-
thunderstorm activity. And in addition to that, we have a suite 
of in-situ sensors that sense the space weather that are 
incoming to our planet. And all of those instruments are 
progressing very well.
    Mr. Posey. Thank you. That is good stuff.
    I yield back, Mr. Chairman. Thank you.
    Chairman Broun. Thank you, Mr. Posey.
    And we will begin our second round of questions now. 
Hopefully, we will have at least five minutes for each Member.
    Ms. Kicza and Mr. Watkins, following up on questions from 
Mr. Stewart as well as Mr. Rohrabacher about this so-called 
``silver bullet'' that Riverside Technology and Integrity 
Applications stated utilizing Chinese data, as they say, is the 
``silver bullet.'' This implies that this provides an immediate 
and a definitive solution to a complex problem. Are you looking 
for this so-called Chinese ``silver bullet?'' Mr. Stewart was 
asking about commercial utilization and so was Mr. Rohrabacher. 
Do you both agree with this characterization? Are you looking 
to the Chinese ``silver bullet,'' and what if any concerns that 
you would have about such collaboration? Ms. Kicza?
    Ms. Kicza. As you mentioned in your opening statement, 
security concerns exist with the use of Chinese data in the 
event of a gap. We are obviously very sensitive to that. NOAA 
believes that this would be a ``whole-of-government'' decision 
involving national security staff.
    Chairman Broun. Are you counting upon that, Ms. Kicza, as 
far as Chinese data?
    Ms. Kicza. No, sir. As we have indicated already, we have a 
host of activities underway beyond use of other international 
assets that we are actively exploring.
    Chairman Broun. Well, I certainly hope so. I hope that is 
not even a consideration.
    Mr. Watkins?
    Mr. Watkins. I have nothing to add.
    Chairman Broun. Mr. Powner, do you have anything to add to 
that?
    Mr. Powner. Well, we would agree that the security 
concerns, also of availability concern I think are big issue 
going that route, too. There are security concerns, but the 
availability issue when it is in fact available if you went 
that route needs to be strongly considered.
    Chairman Broun. I certainly hope so. We have seen a lot of 
cyber attacks from China and it is a very strong concern of 
mine personally as a Member of not only this Committee but 
Homeland Security Committee about what is going on with China 
and they are attacking us. And utilizing them as a ``silver 
bullet'' is absolutely not appropriate, and I hope that you all 
will look to other sources and put in policy that is going to 
look to the commercial sources, as well as backfilling all 
these gaps and problems that we see.
    And, Mr. Powner, have NOAA or NASA satisfied GAO's 
inquiries concerning the new structure, budgets, and timeline 
for the JPSS and the GOES-R programs?
    Mr. Powner. Yes, I think we are in alignment on what needs 
to be done--what the current budget is and the schedules and 
that type of thing. Our big push, Mr. Chairman, is that 
tightening up the management of those schedules, the integrated 
master schedule with JPSS and the components schedules. We are 
in the weeds with them on this, but it is important to be in 
the weeds so that they stay on that March 2017 launch date.
    Chairman Broun. Well, this is a weedy problem and it is 
something that we need to fill because I am very concerned and 
I think all of us are concerned about these gaps.
    Mr. Watkins, does NASA have any concern about NOAA's 
proposal to shift climate sensors to you?
    Mr. Watkins. Again, sir, my area of expertise is in 
managing weather satellites, reimbursable programs on behalf of 
NOAA.
    Chairman Broun. Well, if you could answer that question for 
us in the questions for the record.
    Mr. Watkins. Yes.
    Chairman Broun. Can you answer this? Why would NOAA's 
ownership of these instruments be better than under the current 
arrangement under NASA, which is building the instruments for 
NOAA?
    Mr. Watkins. Again, that is a question that I will have to 
take for the record.
    Chairman Broun. Okay.
    Mr. Watkins. We have a science division that handles those 
areas.
    Chairman Broun. And certainly if you would help us with 
that.
    Mr. Watkins. I will.
    Chairman Broun. Mr. Maffei, you are recognized for five 
minutes.
    Mr. Maffei. I thank the Chairman, and I echo his remarks 
about depending too much on China. There is no bipartisan 
divide whatsoever on this. We are very concerned about it. 
Hopefully, they would--we would never have to rely on them. And 
on the Armed Services Committee, we, too, are very, very 
concerned about the cyber security issues and it would put us 
in a very awkward position to have to depend on that particular 
country for this stuff.
    I do want to get back to Mr. Rohrabacher's comments on 
having the private sector more involved. Mr. Powner, my--I 
actually would be open to that. I am a big advocate of private 
sector involvement and public-private partnerships in the space 
program. But my understanding is is that there are already 
private contractors that do most of the actual work that are 
hired to build the satellites and even launch the satellites 
into orbit. Is that true?
    Mr. Powner. Yeah, that is true.
    Mr. Maffei. Can you----
    Mr. Powner. Private contractors, private companies, 
correct.
    Mr. Maffei. So there is not--so most of this is already 
private--well, public-private partnerships that really do it.
    Mr. Powner. Yeah, I think the key question is with the 
Riverside analysis there was a suggestion that commercial 
providers could actually be used to help fill the gap. I think 
that is where the suggestion was. Both government for and 
commercial, all that was on the table with Riverside study.
    Mr. Maffei. Mr. Chairman, I might suggest that a study 
might be in order to have GAO take a closer look at whether 
there are any additional opportunities for public-private 
partnerships in the space program. I think it would be a 
bipartisan thing to----
    Chairman Broun. Well, certainly. I think all of us would be 
very eager to make sure that that happens.
    Mr. Maffei. Okay. Thank you.
    Ms. Kicza, I think you are the right person to ask this to, 
but according to the GAO, key satellite data users were not 
fully informed about the changes to GOES-R capabilities or 
alternative efforts to receive the data needed in the event of 
a system failure. Have there been any outreach efforts in place 
to ensure that GOES data will continue to enable users that are 
outside of NOAA to complete their mission and--I mean are there 
any outreach efforts just to make sure that all of the various 
scientific users and private sector users are kept informed of 
these sort of issues when they arise?
    Ms. Kicza. Yes, there are avenues, and I think that what 
Mr. Powner encouraged is that we strengthen those. And so we do 
have regular conferences that we present at, where the users 
are largely present where we highlight the changes that are 
made. We have operational working groups that reach out to the 
users that inform them and help us make decisions on any trades 
that we have to make.
    In addition to that, in a response to the recommendations 
of the GAO, we are working with the Office of the Federal 
Coordinator of Meteorology to reinstitute a committee that had 
been in place prior to NPOESS as an additional method of 
reaching out to other agencies and their users to ensure that 
they are kept abreast of how our programs are progressing.
    Mr. Maffei. Mr. Watkins, how has the sequester affected 
your agency's ability to implement these weather-related 
programs?
    Mr. Watkins. So all of our funding is received via our 
partners, NOAA. And so clearly sequestration has had an impact 
on our ability associated with stable funding, which is what we 
need in order to adequately be able to build operational 
weather satellites.
    Mr. Maffei. Ms. Kicza, same question to you. And do you 
have enough flexibility in order to at least keep everything on 
track? How is that affecting you?
    Ms. Kicza. As I mentioned in my oral testimony, we have 
worked hard in the face of sequester reductions received in 
FY2013 to try to maintain the launch schedules. We were able to 
do that with the JPSS, keep JPSS-1 on track. To be honest with 
you, the way that we did that is we impacted the Polar Free 
Flyer, the part that was outside of the JPSS.
    With the GOES-R, as I had also indicated, the team is 
working to maintain the earlier launch date. However, given the 
low budget reserve posture we have in light of the reductions, 
the commitment we are making is to the second quarter of Fiscal 
Year 2016 for that launch.
    Mr. Maffei. All right. Mr. Powner, I appreciate it if you 
would follow up on it just in terms of your analysis, the 
impact of the sequester on these programs.
    Mr. Powner. So sequestration $54 billion, it was clear that 
GOES-R on our--based on our analysis a year ago and currently 
was going to slip without sequestration. So now they are saying 
part of the slip was due to sequestration. Sequestration, we 
don't know the details on what actually affect that the slip. I 
will say this: There were two prime contractors, one with the 
spacecraft, one with the ground. They continued to do work. So 
we did not have a situation where work was stopped.
    Mr. Maffei. Okay. So work continued.
    Mr. Powner. I know there was arrangements cut with 
contractors which was appropriate to keep the work going. So 
those details on how 54 equated to a one quarter slip, we don't 
have that, but I do want to say that I think it was likely 
going to slip without sequestration.
    Mr. Maffei. I thank the Chairman. I have gone three seconds 
over.
    Chairman Broun. Thank you, Mr. Maffei.
    Mr. Stewart, you are recognized for five minutes.
    Mr. Stewart. Thank you, Mr. Chairman. And again, I won't 
take that long. I have just a very quick question.
    And this is helpful to me; I think it is helpful for the 
record. But I was going to ask you as witnesses to give your 
best perception or opinion on a scale of one to ten, ten being 
severe, one being we are in great shape, what is your 
perception of the potential the gapping and satellite coverage 
of being a problem to the United States? How big of a problem 
is it to you, Mr. Powner? Could you give me a perception on 
your feeling on that?
    Mr. Powner. I think for me it is a ten.
    Mr. Stewart. Okay.
    Mr. Powner. I think that we are predicting a 17-month gap. 
I think you are going to have a gap.
    Mr. Stewart. Yeah.
    Mr. Powner. Having no gap at all I think is highly 
unlikely, so I would put it at ten.
    Mr. Stewart. Okay. Thank you.
    Ms. Kicza?
    Ms. Kicza. The impact of a gap is severe. I would rate that 
as a 10. The probability of a gap I think is improving.
    Mr. Stewart. Okay. Would you give me a rating on that, what 
you think the probability is?
    Ms. Kicza. I would say given the progress we have made and 
the operations on SUOMI-NPP I would rate it as a five.
    Mr. Stewart. Five? And, Mr. Powner, your rating was both on 
the severity and also the likelihood, is that true?
    Mr. Powner. Correct.
    Mr. Stewart. Okay. Mr. Watkins?
    Mr. Watkins. I think for the JPSS program, given that 
SUOMI-NPP has been operating on orbit without any infant 
mortality issues, given the fact that I have confidence in the 
schedule associated with JPSS-1, I would probably give it a 
four or five.
    Mr. Stewart. Okay. And that is on the likelihood?
    Mr. Watkins. Yes.
    Mr. Stewart. Not on the severity should we encounter a gap?
    Mr. Watkins. No. No.
    Mr. Stewart. Yeah.
    Mr. Watkins. And that is on the likelihood. The severity--
--
    Mr. Stewart. Yeah.
    Mr. Watkins. --is huge.
    Mr. Stewart. Yeah. I hope that you who are more optimistic 
are right. I am afraid that you are not. I think it is in my 
opinion much more than a five. I think it is almost inevitable.
    Let me ask you one other question using the same kind of 
format. What do you think are the best options? Do you think 
that the commercially available data is the best option? That 
should be the direction we are leaning? Or should we be leaning 
towards foreign sources? Mr. Powner?
    Mr. Powner. Well, I think it is clearly a combination not 
only of using additional satellites, whether it is some 
foreign, some commercial, some other government. I think you 
need to look at all those, but also, it is important to look at 
other weather observations, observations from aircraft and also 
improving the weather modeling.
    Mr. Stewart. Okay.
    Mr. Powner. Weather modeling improvements could help, too.
    Mr. Stewart. Can help, too?
    Mr. Powner. It is a combination of everything.
    Mr. Stewart. So you would rate them all as equally 
important, one not being much more than another?
    Mr. Powner. Yes, I don't know if I am in a position to say 
that it is better or not. I think that our recommendation is 
that we need to make the decisions on what the best options are 
given the current budget situation.
    Mr. Stewart. Which was part of my previous question. Let's 
lean forward on that.
    Ms. Kicza, is one considered a strong preference in your 
opinion?
    Ms. Kicza. My strongest preference is to keep these 
programs funded, keep them stable so that these teams can 
execute.
    Mr. Stewart. Okay.
    Ms. Kicza. I think that is our strongest weapon against 
running a gap.
    Mr. Stewart. Okay. But if you had to choose right now, you 
know, as a relief as something that you could count on as 
backing up, would that be commercially available or foreign?
    Ms. Kicza. I would use a combination of the assets that are 
available to us.
    Mr. Stewart. Both of them being equal?
    Ms. Kicza. Yes.
    Mr. Stewart. Okay.
    Ms. Kicza. Yes.
    Mr. Stewart. Mr. Watkins?
    Mr. Watkins. Again, I believe that we need to remain as 
focused as possible on trying to meet our overall schedules and 
deadlines associated----
    Mr. Stewart. Understanding----
    Mr. Watkins. --and----
    Mr. Stewart. --that, but if that weren't to be the event, 
what would be your preference for the primary backup?
    Mr. Watkins. I think we would be looking at everything and 
I would defer to the expertise of NOAA to meet those needs.
    Mr. Stewart. All right. Thank you. And I yield back.
    Chairman Broun. Thank you, Mr. Stewart.
    Ms. Bonamici, you are recognized for five minutes.
    Ms. Bonamici. Thank you, Mr. Chairman.
    I don't think I will take that long but I wanted to follow 
up on the question that Mr. Maffei asked about GOES-R. Ms. 
Kicza, the cost estimates on JPSS have gone up and down of 
course in recent years. At the high point, it was projected to 
be about $14.6 billion; now, it is down to $11.3 billion. Could 
you talk a little bit about how you have folded the key users 
and stakeholders in the process to ensure that the essential 
functionality was not sacrificed in the search for savings?
    Ms. Kicza. Yes, ma'am. As we establish our requirements for 
the JPSS program, we worked very closely with all of the major 
line organizations within NOAA, the Weather Service being 
obviously the primary line organization, and assured that the 
requirements and trades that we are addressing are keeping 
their highest priority requirements intact. Those are referred 
to as the Key Performance Parameters. So we worked very closely 
with our NOAA counterparts who are taking this data and 
providing the products and services that the broader country 
takes advantage of.
    In addition to that, as we go through these trades, there 
are multiple opportunities to have dialogue with the broader 
community and we regularly engage in those forums.
    Ms. Bonamici. Thank you. And I want to follow up on what 
Mr. Stewart said earlier about looking forward. And obviously, 
there have been troubles in the past, and looking forward, I 
know that the Independent Review Team completed a report on the 
JPSS program last year. So what steps have you taken to follow 
the advice of the Independent Review Team? I think we all need 
some reassurance that things are getting better.
    Ms. Kicza. The Independent Review Team, which was led by 
Tom Young and host of other very senior acquisition experts, 
provided a report in July of last year, July of 2012. They had 
23 recommendations. This past August we brought that entire 
team back and we reviewed with them our response to all of 
those recommendations. I think it is fair to say that they were 
pleased, quite pleased with the progress that has been made. 
They have identified a couple of areas that they want 
additional detail in, and we are scheduled to provide that 
information to them and they are projecting to have a report 
available in the November time frame.
    Ms. Bonamici. Thank you very much.
    And I yield back. Thank you, Mr. Chairman.
    Chairman Broun. Thank you, Ms. Bonamici.
    I thank the witnesses for your valuable testimony today, 
and I thank the Members for their questions. Members of the 
Committee may have additional questions for you, and I ask that 
you respond to those questions in writing, and please do it as 
expeditiously as possible.
    Let me remind you that everyone's responses to our 
questions are expected in a very timely manner. I am not 
unreasonable and I can permit a delay of a week or two, but 
delays that extend for over one year are totally inexcusable 
and intolerable.
    The record will remain open for two weeks for additional 
comments and written questions from Members.
    Thank you all so much. The witnesses are excused and this 
hearing is adjourned.
    [Whereupon, at 11:34 a.m., the Subcommittees were 
adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


                              Appendix II

                              ----------                              


                   Additional Material for the Record




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
